                      National Science Foundation • Office of Inspector General
                      4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230

MEMORANDUM

Date:          September 28, 2012

To:            Mary F. Santonastasso, Director
               Division of Institution and Award Support

               Karen Tiplady, Director
               Division of Grants and Agreements

From:          Dr. Brett M. Baker /s/
               Assistant Inspector General for Audit

Subject:       Audit Report No. OIG-12-1-006
               Drilling, Observation and Sampling of the
               Earth’s Continental Crust, Inc.


This memo transmits McBride Lock and Associate’s audit of NSF Award Numbers
EAR-0309707, EAR-0829286 and EAR-1060083 awarded to the Drilling, Observation and
Sampling of the Earth’s Continental Crust, Inc. (DOSECC). The audit determines the
allowability of NSF-funded costs claimed from September 1, 2003 to September 30, 2011,
totaling $3,245,053 in costs claimed for the awards.

The auditors identified $527,504 of questioned costs, of which              are excess indirect costs
claimed due to the application of a revised final indirect cost rate, errors in payroll charges, and
claiming of other direct costs not allowed by Federal regulations. An additional $247,650 of
costs lacked adequate documentation of payroll and vendor charges. Included in the $527,504 of
questioned costs are $263,750 of costs reported in OMB A-133 reports that are being resolved by
the NSF’s Cost Analysis and Audit Resolution Branch. To avoid duplicate counting of
questioned costs, the tables in our September 2012 OIG Semiannual Report to Congress will
only report the $263,754 in questioned costs that are not included in the OMB A-133 reports.

The auditors recommended that NSF address and resolve the recommendations made to
DOSECC and ensure DOSECC’s new or expanded policies and procedures are implemented,
where appropriate. DOSECC, in its response dated August 31, 2012, stated that it has taken
corrective action regarding many of these areas in recent years and determined that many of
these problems identified in the audit have been corrected. DOSECC’s response is described
after the findings and recommendations and is included in its entirely in Appendix A.
Please coordinate with our office during the six month resolution period, as specified by OMB
Circular A-50, to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing copies of this memorandum to the Assistant Director, Directorate for
Geosciences; Division Director of Earth Sciences (GEO/EAR); and the Program Director within
the Division of Earth Sciences (GEO/EAR). The responsibility for audit resolution rests with the
Division of Institution and Award Support, Cost Analysis and Audit Resolution Branch (CAAR).
Accordingly, we ask that no action be taken concerning the report’s findings without first
consulting CAAR at 703-292-8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed McBride Lock and Associates approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with McBride Lock and Associates and NSF officials, as
          necessary, to discuss audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by McBride Lock and Associates to ensure compliance
          with Government Auditing Standards; and
      •   Coordinated issuance of the audit report.

McBride Lock and Associates is responsible for the attached auditor’s report on DOSECC and
the conclusions expressed in the report. We do not express any opinion on the conclusions
presented in MLA’s audit report.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at 703-292-4996.

Attachment

cc:       Margaret Cavanaugh, Assistant Director, GEO /OAD
          Wendy Harrison, Division Director, GEO/EAR
          David Lambert, Division Director, GEO/EAR




                                                 2
             Drilling, Observation and
             Sampling of the Earth’s
              Continental Crust, Inc.
             675 S. Arapeen Drive, Suite 201
             Salt Lake City, Utah 84158-0857

                 Independent Auditors'
             Performance Audit Report on
            National Science Foundation
            Award Numbers EAR-0309707,
           EAR-0829286 and EAR-1060083


For the period from September 1, 2003 to September 30, 2011




                                                McBride, Lock & Associates
                                                          1111 Main Street
                                                                  Suite 900
                                                    Kansas City, MO 64105
TABLE OF CONTENTS


                                                   Page

Introduction                                        1

Audit Objectives                                    1

Summary of Audit Results                            2

Findings                                            3

Exhibit A – Summary of Questioned Costs by Award   13

Exhibit B – Detail of Questioned Costs             14

Appendix A – DOSECC Response                       17

Appendix B – Objectives, Scope, and Methodology    22
Introduction

The National Science Foundation (NSF) is an independent federal agency created by Congress in
1950 to promote the progress of science, to advance the national health, prosperity, and welfare,
and to secure the national defense. The NSF is the funding source for approximately 20 percent
of all federally supported basic research conducted by America's colleges and universities. NSF
issues awards to universities, individuals, and small groups of investigators and provides funding
for research centers, instruments and facilities that allow scientists, engineers and students to
work at the outermost frontiers of knowledge.


The NSF has funded awards to a non-profit organization entitled Drilling, Observation and
Sampling of the Earth’s Continental Crust, Inc. (DOSECC). DOSECC has approximately 10
employees and participates in a consortium with 57 members, most of which are universities that
benefit from the research conducted. The stated mission of DOSECC is to provide leadership
and technical support in subsurface sampling and monitoring technology for addressing topics of
scientific and societal importance. DOSECC has one completed NSF award of approximately
$2.9 million and one substantially completed NSF award of approximately $244 thousand.
DOSECC also received an NSF award of approximately $170 thousand, effective September 30,
2011, with projected funding of $1.2 million. This award was terminated by NSF effective July
19, 2012.

Audit Objectives

The firm of McBride, Lock & Associates was engaged by the NSF’s Office of Inspector General
(OIG) to conduct an audit to determine the allowability of costs claimed by DOSECC under NSF
awards EAR-0309707 for $2,959,143 and EAR-0829286 for $243,962. Limited procedures
consisting of the review of $41,948 of award costs claimed and incurred prior to the award
effective date of September 30, 2011 were also requested and performed with respect to award
EAR-10600831. The audit period was from inception of award EAR-0309707, September 1,
2003, through September 30, 2011. The specific objective of the audit of NSF funds at DOSECC
was to identify costs claimed on the NSF awards that are not allocable, allowable, reasonable,
and in conformity with NSF award terms and conditions and applicable Federal grant
requirements for the period of expenses (September 2003 – September 2011) that were recorded
by DOSECC on its general ledger and claimed in its September 30, 2011 Federal Financial
Report (FFR) submitted to NSF.
_______________
1
  Subsequent to the Exit Conference held with DOSECC on July 17, 2012, it came to the
  auditors’ attention that Award 1060083 was terminated by NSF on July 19, 2012.




                                                1
Summary of Audit Results

The audit resulted in the identification of $527,504 of questioned costs, of which              are
unallowable charges to NSF awards due to claiming reimbursements pursuant to a provisional
indirect cost rate rather than the subsequently revised final rate, errors in payroll charges, and
claiming of other direct costs not allowed by Federal regulations. An additional $247,650 of
costs lacked adequate documentation of payroll charges and vendor purchases. Included in the
$527,504 of questioned costs are $263,750 of costs which pertain to findings included in reports
issued by other independent auditors pursuant to Office of Management and Budget (OMB)
Circular A-133 and which, as of the date of this report, were being resolved by the NSF’s Cost
Analysis and Audit Resolution Branch.

We recommended that NSF’s Director of the Division of Institution and Award Support address
with DOSECC and resolve the questioned costs cited above and ensure that new or expanded
policies and procedures are implemented where appropriate.




McBride, Lock & Associates
August 10, 2012




                                                2
Findings


Finding No. 1 – Excess Indirect Costs Claimed

Indirect costs were claimed based upon provisional rates, because final negotiated rates were not
available until July 2012, which resulted in a decrease to allowable indirect costs under NSF
award EAR-0309707. As of the date of this report, NSF is resolving the related questioned
costs, previously identified in DOSECC’s OMB A-133 reports. Therefore, the excess indirect
costs claimed by DOSECC have not yet been returned to NSF.

Indirect costs are governed by the provisions of 2 Code of Federal Regulations (CFR) 230
(formerly OMB Circular A-122), Costs Principles for Non-Profit Organizations, which provides
for the allocation of allowable indirect costs to benefiting cost objectives pursuant to an equitable
distribution base. An indirect cost rate measures the proportion of allowable indirect costs to the
distribution base, and is used to distribute indirect costs to individual awards. The rate is expressed as the
percentage which the total amount of allowable indirect costs bears to the base selected.

DOSECC was assigned a provisional indirect cost rate for use in estimating and reporting
indirect costs charged to federal awards. 2 CFR 230 Attachment A to OMB Circular A-122,
Section E. Negotiation and Approval of Indirect Cost Rates, E.1.e, defines a provisional rate to
mean a “temporary indirect cost rate applicable to a specified period which is used for funding,
interim reimbursement, and reporting indirect costs on awards pending the establishment of a
final rate for the period.” A final rate is defined by 2 CFR 230 as an indirect cost rate applicable
to a specified past period which is based on the actual costs of the period. A final rate is not
subject to adjustment. Additionally, NSF has prescribed to DOSECC indirect cost rates
associated with specific mini-proposals that constitute components of an overall NSF award.

In 2009 DOSECC began reviewing all costs charged to NSF award EAR-0309707 including the
associated indirect costs. DOSECC determined that indirect and fringe benefit costs had been
claimed based on indirect cost rates that exceeded their proposed final rates approved by NSF.
An amount approximating excess indirect costs claimed was calculated by DOSECC and accrued
as a liability which is reported in the DOSECC audited financial statements for the year ended
December 31, 2011. On July 11, 2012, DOSECC received notification from NSF of the final
indirect cost rates for the years 2003 through 2008, applicable to award EAR-0309707. The
calculation of excess indirect costs was reviewed by NSF, as cognizant agency, and was adjusted
to reflect the proposed final indirect cost rates set forth in the Rate Agreement dated July 11,
2012, modified to ensure the final rates did not exceed the maximum provisional rates. The final
amount determined to represent the effect of the excessive overhead and fringe benefit rates was
             This amount represents charges to NSF award EAR-0309707 that exceeded approved
and allowable levels, and which therefore constitute questioned costs of           which pertain
to the findings questioned in the OMB A-133 reports.




                                                      3
Recommendation No. 1

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the recommendation that DOSECC return the questioned costs to NSF.

Awardee’s Comments

DOSECC used the maximum provisional indirect cost rates provided in the award documents to
track the expenses charged to the grant EAR0309707 from 2003 to 2008. DOSECC did not
receive ICR determination for the period of the grant until July 2012, four years after the 5 year
grant ended. The indirect cost reports submitted by DOSECC to NSF for the grant period did not
receive any conclusive feedback that would have allowed DOSECC to adjust its ICR
calculations and process differences on a yearly basis. DOSECC believes that NSF is also at fault
by not performing timely ICR determinations on an annual basis. This has not allowed DOSECC
to close on a yearly basis the funds awarded by the grant. It is worth mentioning that DOSECC
never received an ICR determination for FY 2002 until this date.

DOSECC made every effort to identify this difference with the help of its auditors and accrued a
liability in its FY 2009 audit report. As the specific rules to determine ICR for DOSECC became
clearer, the liability grew in FY 2011 to a level that is close to the level identified by the OIG
audit.

DOSECC agrees with the OIG conclusion of a difference of          due to the application of
provisional ICRs. In the meantime, DOSECC has established an improved indirect cost system
with CAAR’s approval and support to determine the ICR. Based on that system, NSF has
finalized the ICR rates for FY 2009/2010/2011.

Auditor’s Response

DOSECC’s comments are responsive to the finding and recommendation. The $201,130 excess
indirect costs charge to award EAR-0309707 has been increased to $234,154 based upon the
application of a provisional rate negotiated for 2006. The finding should not be closed until
DOSECC returns the questioned costs.


Finding No. 2 – Inadequate Payroll Documentation

During the initial years of award EAR-0309707 (2003 through 2007), the Institution had
numerous instances of inadequate payroll documentation to support the charges to the federal
award. Audit procedures also identified instances of not applying costs in proportion to the
relative amount of time expended on the award, and one instance of payroll not based on a
documented pay rate approved by a responsible official of the organization.




                                                4
2 CFR 220 (formerly OMB Circular A-122), Cost Principles for Non-Profit Organizations,
addressed required support for salaries and wages charged to federal awards. Specifically,
Attachment B.8.m.(2)(c), pertains to reporting of labor effort and states that “The reports must be
signed by the individual employee, or by a responsible supervisory official having first-hand
knowledge of the activities performed by the employee, that the distribution of activity
represents a reasonable estimate of the actual work performed by the employee during the
periods covered by the reports.”

Attachment B.8.m.(1) states that “charges to awards for salaries and wages, whether treated as
direct costs or indirect costs, will be based on documented payrolls approved by a responsible
official(s) of the organization.”

Attachment B.8.g.(1), states that “Fringe benefits in the form of regular compensation paid to
employees during periods of authorized absences from the job, such as vacation leave, sick
leave, military leave, and the like, are allowable, provided such costs are absorbed by all
organization activities in proportion to the relative amount of time or effort actually devoted to
each.”

The sample selection of 30 payroll transactions revealed 1 payment not based on a documented
pay rate approved by a responsible official of the organization. There were 2 instances of the
organization not charging costs to its NSF awards in proportion to the relative amount of time or
effort actually expended on the award as set forth on effort reporting documents. These three
instances represent $2,923 in salaries. When fringe benefits of          and indirect costs of
are considered, questioned costs due to these 3 exceptions total $4,783.

Our inspection of the sample selected for testing also disclosed 6 instances in which the PI’s time
sheet was either not signed or not provided as part of the payroll documentation. The PI was also
the                                                 . We expanded our testing to cover additional
time periods and learned that 27 timesheets for the last three bi-weekly pay periods in 2005 and
all of 2006 were not signed by the PI or a responsible supervisory official with direct knowledge
of the work performed. Time sheets tested from periods prior to 2005 were observed to have
been signed. We were informed that, during 2005 and 2006, the failure to sign timesheets was
due to the PI’s absence while on-site at drilling projects and further that, during this period, he
communicated periodically, by phone and email, with administrative staff in his office in order to
apprise them of his activities. The PI also maintained daily work journals in which he recorded
the nature of his activities, meetings, telephone calls and similar events. A review and
comparison of selected entries set forth in the journals to labor effort charged revealed no
inconsistencies. However, there are no signed time sheets or effort reports supporting the labor
hours charged to the NSF award EAR-0309707 during the period as required. The 27 unsigned
or missing time sheets represent $122,024 of unsupported costs consisting of $70,106 of salaries,
          of fringes and              of overhead. Therefore, NSF will have to determine the
allowability of the costs during its audit resolution process.

We also noted that a DOSECC employee’s status changed from full-time to three-quarter time
effective July 1, 2007. However, his labor costs continued to be charged to the NSF award at the
full-time rate until April 9, 2008. The additional hours charged to NSF amounted to $4,133 in
salaries, $1,511 in fringe benefits and    in overhead costs, for a total of


                                                5
Recommendation No. 2

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the following recommendation that DOSECC:

   a . Review DOSECC’s systems to ensure that all full-time employees are in fact expending
       full-time effort and that no conflict of interest exists with respect to use of employee-
       owned companies providing services on federally-funded projects.

   b. Work with NSF to resolve the unsupported costs cited above.

Awardee’s Comments

DOSECC started a full review of its procedures in FY 2009 as requested by NSF. This resulted
in a precise system to track time and effort. The OIG report confirmed this development.
DOSECC also eliminated potential conflict of interest situations terminating any work performed
by an employee’s personal firm.

The administrative oversight that led DOSECC to continue paying a full time salary to an
employee with reduced work load was corrected in April 2008, i.e. well before this OIG audit.

NSF, Division of Grants and Agreements performed a review of our policies and procedures in
2007 and we responded in July 2008 that a comprehensive manual would be complete in 2009.
NSF knew back in 2007 that our internal controls with respect to timekeeping required
improvement and we finalized these policies in 2009. Since then, we have had A-133 audits,
voluminous inquiries from NSF and OIG audit. Though we improved our current system, we
acknowledge the auditor’s concerns on missing timesheet signatures for 2005 and 2006. It is
impossible for us to fix this historical problem and other matters you mentioned in Finding 2 of
this audit.

The auditor states that there is not adequate documentation, and thus questions $128,382 in
loaded labor cost. DOSECC does not concur with the disallowance of said cost based on it being
“unsupported.” There is other corroborating evidence such as diaries and other items that the
auditor stated was not inconsistent that supports the allowability of said loaded labor charges.
We agree that the controls for time reporting with employee signature requires improvement, but
that does not automatically infer that said costs are disallowed or put by the auditor in “limbo” as
“unsupported” and let the parties resolve.

If you review section 8m of OMB Circular A-122, Attachment B, it does require employee
signatures but it does not state, that a lack of signature means “unsupported” or disallowed cost.
If DOSECC and NSF do not agree on the disallowance of this cost, these disallowed costs will
be challenged in arbitration or be appealed to the board of contract appeals. We are confident
that the basis of our appeal will be predicated on the fact that the administrative court justices
will ultimately decide whether there is evidence that the labor cost was indeed incurred on the
aforementioned grant. We have proved with other corroborating documents that this cost was
indeed incurred in support of the NSF grant. We are also willing to provide sworn affidavits by
the CEO to attest to this fact. Ultimately, the administrative justices will rule as to whether the


                                                 7
work was performed and substantiated by other supporting data. We are confident that these
costs that are inappropriately disallowed as “unsupported” would be reinstated by a higher
authority.

The auditor’s report states that the support for the level of loaded salaries charged to the award
for Chris Delahunty is deemed to be unreliable and not adequately documented. It concludes
with $22,494 questioned costs. The use of DOSECC Director of Operations firm, CphiD, was
marginal in 2008 and 2009 when it was interrupted. The consulting services of CphiD were
never used for an NSF grant as illustrated in the offer statement; the use of CphiD was intended
for commercial work. The hours demonstrated by time sheet for the Director of Operations are
totally documented. The hours expended on the private company did not reduce labor hours
available to DOSECC due to the nature of the activities developed outside of normal business
hours. Ultimately, the time load dedicated to DOSECC did not leave Chris Delahunty with much
time to develop his business which is actually currently much diminished. DOSECC does not
concur with disallowing $22,494 because the timesheets recorded for the Director of Operations
are accurate and do not overlap with CphiD activities in part because of the heavy travel load the
Director of Operations had. It would have been impossible for Chris Delahunty, for example, to
develop CphiD when in the far North Eastern part of Russia on mission for DOSECC.

Auditor’s Response
DOSECC’s comments are responsive to the finding and recommendation. The $128,382 in
unsupported labor costs has been decreased to $122,024 based upon the application of a
provisional rate negotiated for 2006. The finding should not be closed until NSF determines
that the recommendation has been adequately addressed, the proposed corrective actions have
been satisfactorily implemented and NSF has resolved the questioned costs.


Finding No. 3 – Noncompliance with Procurement Documentation Requirements

Our audit procedures identified purchases that did not have approvals that were adequately
documented, were not allowable under federal cost principles, or were not related to the federal
award.

Federal regulations and specifically 2 CFR 215 (formerly OMB Circular A-122) requires that all
costs reimbursed by federal awards be allowable, allocable and reasonable, and be incurred
pursuant to a sound financial management system. Further, Appendix A, Subpart C to 2 CFR
215 prescribes standards for financial management systems and methods for making payments.
It states, in part, that recipients' financial management systems shall provide effective control
over and accountability for all funds, property and other assets and accounting records including
cost accounting records that are supported by source documentation.

The sample selection of 32 disbursements revealed that invoices supporting 9 disbursements
totaling $89,107 in amount did not have documented evidence of approval. The 9 unsigned
invoices represent 28% of the total 32 invoices inspected amounting to $337,541. We were
informed that the                                 who was responsible for approving purchases
did not consistently document his approval on vendor invoices. However, the         represented
that    was aware of all significant purchases and manually signed substantially all checks for


                                                8
payment of the related invoices. Cancelled checks were examined for each of the 9 unsigned
invoices and were found to have the           manual signature on the check. The CEO traveled
extensively to drilling locations during the period of award EAR-0309707. During this period,
which was prior to the employment of a Chief Financial Officer, it was not considered necessary
to document CEO approval of vendor invoices prior to payment. No invoices were identified as
paid without documented approval subsequent to 2008.

The absence of authorized signatures documenting approval for charges to federal awards
reduces the assurance that such charges were reviewed for consideration as to whether the related
costs were allowable, allocable and reasonable, as required by federal cost principles. Failure to
document review and approve disbursements is not consistent with the characteristics of a sound
financial management system. These costs are considered to be unsupported and therefore
questioned in the amount of $103,132, consisting of $89,107 of direct costs and                 of
associated indirect costs. Otherwise, no instances were noted in which the charges did not
appear to be reasonable, allowable and allocable. Further, subsequent to the years in which
these unallowable charges were noted, DOSECC adopted, implemented and documented policies
and procedures to address the criteria for allowable costs and specify that only costs meeting
these criteria may be charged to Federal awards. Training was also provided to employees to
ensure understanding and awareness of these policies and procedures. Therefore, NSF will have
to determine the allowability of the costs during its audit resolution process.

We noted 1 payment in the amount of $2,390 which appeared to represent the purchase of
alcoholic beverages during an event, a payment representing a bartending tab of $400, a payment
of $355 that represented costs to attend a DOSECC Board of Director’s meeting (which, while
not related to or chargeable to the NSF award, could have been included in the indirect cost
pool), and a payment of $500 as a bonus to a contractor which was not provided for in his
agreement, all of which were improperly charged to NSF award No. EAR-0309707. Upon
further investigation into these charges, we learned that, as part of a comprehensive review of
award charges, DOSECC had previously identified these unallowable costs, amounting to
$3,645, and additional charges amounting to $25,951, which they determined to be unallowable.
The total of these charges to NSF awards was $29,596. These charges, which include the
unallowable costs identified during this audit, have been recorded as a liability in the audited
DOSECC financial statements.

As discussed in Finding No. 1, DOSECC’s independent A-133 auditors also questioned this
dollar amount. Accordingly, $263,750 ($29,596 and $234,154) remain as outstanding funds due
NSF.

Recommendation No. 3

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the following recommendation that DOSECC:

   a. Ensure DOSECC personnel adhere to their existing policy requiring documented approvals
      on all invoices.

   b. Work with NSF to resolve the questioned costs cited above.


                                                9
Awardee’s Comments

An enhanced formal procurement process was implemented fully in 2009 and that weakness is
now totally corrected as evidenced by the approval of invoices to NSF under the special payment
status.

As mentioned in the OIG report, this lack of adequate documentation occurred in the years
2005/2006 and 2007. The OIG report clearly states that the final authorization represented by the
check was signed personally by the CEO. No expenses are questioned in terms of their intrinsic
justification. The problem is formalization of the procurement process.

DOSECC also identified unallowable expenses proactively as mentioned in the OIG report and
included that amount in the potential liability with NSF in the FY 2010 audit report.

DOSECC does not concur with the disallowance of $105,843 in “unsupported cost” merely
because there were no procurement approvals. Since all of this cost was charged in the
performance of work on the aforementioned grant, DOSECC must be reimbursed for all work
performed even though there were no procurement approvals. For the same reasons discussed
under Finding 2 of this audit report, DOSECC would challenge the disallowance of items
purchased to a higher authority if NSF does not reinstate them as allowable. We are ready to
provide sworn affidavits that these costs are necessary for the performance of the NSF grants.

Auditor’s Response

DOSECC’s comments are responsive to the finding and recommendation. The $105,843 in
unsupported procurement approvals has been decreased to $103,132 based upon the application
of a provisional rate negotiated for 2006. These costs were questioned because the support
provided does not meet the requirements of OMB Circular A-122. Invoices were not
documented as approved and another person was an authorized check signer. There is no
evidence that the signer or anyone else in a responsible position even viewed the invoices
without this documentation. The finding should not be closed until NSF determines that the
recommendations have been adequately addressed, the proposed corrective actions have been
satisfactorily implemented and NSF has resolved the questioned costs.


Finding No. 4 – Compliance with Travel Regulations

Our audit procedures found one instance of non-compliance with the Fly America Act. The PI
used a non code-sharing airline to fly from Seattle, Washington to Seoul, Korea.

National Science Foundation (NSF), Grant General Conditions (GC-1), requires the use of U.S.-
Flag Air Carriers.




                                               10
                                                                                            Exhibit A
                              Drilling, Observation and Sampling of the Earth’s
                                           Continental Crust, Inc.

              Award Numbers EAR-0309707, EAR-0829286 and EAR-1060083
                         Summary of Questioned Costs by Award

                        Period from September 1, 2003 through September 30, 2011


                                                         Questioned Costs
                                                                                  Under A-133
Finding                                                                           Resolution by
Number        Finding Description        Award     Disallowed    Unsupported      NSF-CAAR        Total

  1       Excess indirect costs        0309707     $       -     $          -     $
  2       Payroll miscalculated        0309707           4,783             -                -       4,783
  2       Unsigned time sheets         0309707              -         122,024               -     122,024
  2       Excess labor charges         0309707           6,623             -                -       6,623
  2       Unsupported labor effort     0829286              -          22,494               -      22,494

  3       Procurement Approvals        0309707             -          103,132               -     103,132
  3       Unallowable Procurements     0309707             -               -                       29,596

  4       Non-US Flag Carrier          1060083           4,698              -               -       4,698

                                                   $ 16,104      $    247,650     $




                                                    13
Exhibit B Contains Proprietary Information and is Fully Redacted
Appendix A – DOSECC Response




                               17
Appendix B – Objectives, Scope and Methodology


The firm of McBride, Lock & Associates was engaged by the NSF’s Office of Inspector General
(OIG) to conduct an audit to determine the allowability of costs claimed by DOSECC under NSF
awards EAR-0309707 and EAR-0829286. Limited procedures were also requested and
performed with respect to award EAR-10600831. The audit period was from inception of award
EAR-0309707, September 1, 2003, through September 30, 2011. The specific objective of the
audit of NSF funds at DOSECC was to identify costs claimed on the NSF awards that are not
allocable, allowable, reasonable, and in conformity with NSF award terms and conditions and
applicable Federal grant requirements for the period of expenses (September 1, 2003 –
September 30, 2011) that were recorded by DOSECC on its general ledger and claimed in its
September 30, 2011 FFR submitted to NSF.

We conducted our audit in accordance with the standards applicable to performance audits
contained in the Government Auditing Standards (2011 revision) issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions relating to the audit objectives.

Management of DOSECC is responsible for establishing and maintaining effective internal
control to help ensure that federal award funds are used in compliance with laws, regulations and
award terms. In planning and performing our audit, we considered DOSECC’s internal control
solely for the purpose of understanding the policies and procedures relevant to the financial
reporting and administration of NSF awards in order to evaluate DOSECC’s compliance with
laws, regulations and award terms applicable to the items selected for testing, but not for the
purpose of expressing an opinion on the effectiveness of DOSECC's internal control over award
financial reporting and administration. Accordingly, we do not express an opinion on the
effectiveness of DOSECC's internal control over DOSECC’s award financial reporting and
administration.

DOSECC, as a Federal awardee, is required to follow the cost principles specified in 2 CFR 230
(formerly Office of Management and Budget (OMB) Circular A-122), Cost Principles for Non-
Profit Organizations, and the Federal administrative requirements contained in 2 CFR 215
(formerly OMB Circular A-110) Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations.

Available award accounting and administration policies and procedures and relevant documented
management initiatives were reviewed, as were previously issued external audit and management
reports. Schedules and reconciliations prepared by DOSECC were analyzed and agreed to


1
    Subsequent to the Exit Conference held with DOSECC on July 17, 2012, it came to the
    auditors’ attention that Award 1060083 was terminated by NSF on July 19, 2012.


                                               22
the accounting records. Documents and accounting records underlying award-funded
transactions were provided by DOSECC prior to fieldwork for purposes of review and analysis.
Data contained in the DOSECC general ledger and supporting detailed ledgers were analyzed in
order to identify anomalies, outliers, and aberrant transactions which were then subjected to
further investigation during audit fieldwork.

Samples of transactions were tested from the population of charges to the NSF awards. The
samples were judgmentally selected based on criteria including, but not limited to, transactions
of large dollar amounts, possible duplications, indications of unusual trends in spending,
inconsistency with other transactions, even dollar amounts, descriptions indicating potentially
unallowable costs, and frequency. Four samples were selected; one representing wage and salary
charges (30 transactions for $105,202), one representing travel charges (23 transactions for
$25,139), one representing direct costs other than payroll and travel (34 transactions for
$337,541) and one representing journal entries (22 transactions for $515,963). The sample sizes
were expanded and additional transactions were tested based on identified exceptions or other
indicators of risk. Because the samples were not randomly generated, the results are not subject
to extrapolation to the population of charges.

Fieldwork was conducted at the DOSECC office in Salt Lake City, Utah, during April and May,
2012, and involved interviews with professional staff, inspection of source documents supporting
selected financial transactions, observation of inventories of capital assets, parts and supplies,
and a tour of DOSECC’s offices. Workpapers from the September 30, 2011 audit performed in
accordance with Office of Management and Budget (OMB) Circular A-133 were also reviewed
and discussions were held with representatives from DOSECC’s independent auditing firm.
Previous audit reports and correspondence from NSF’s program and cost accounting personnel
were read and considered for purposes of understanding issues identified and addressed over the
course of the nine-year audit period. Additionally, discussions were held with NSF management
and NSF-OIG officials regarding matters relevant to the NSF awards. NSF is the federal
cognizant agency for DOSECC.

We held an exit conference with DOSECC officials on July 17, 2012.




                                               23
       HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL


            Internet
          www.oig.nsf.gov


           Email Hotline
           oig@nsf.gov


             Telephone
            703-292-7100


    Toll-Free Anonymous Hotline
           1-800-428-2189


                Fax
            703-292-9158


                Mail
    Office of Inspector General
    National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 24
